No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
RICHARD D. COLLINS
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
HUMPHREY DANIELS III
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 9th day of
August, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,499
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Executed on
August 9, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 9, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist,
Office of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

USA
RICHARD D. COLLINS
USA
HUMPHREY DANIELS III
WILLIAM E. CASSARA
PO BOX 2688
EVANS, GA 30809
706-860-5769
BILL@WILLIAMCASSARA.COM
MARK J. SCHWARTZ, MAJOR, USAF
APPELLATE DEFENSE COUNSEL
AIRFORCE APPELLATE DEFENSIVE DIVISION
1500 W. PERIMETER ROAD
SUITE 1100
JB ANDREWS, MD 20762
240-612-4770
MARK.J.SCHWARTZ7.MIL@MAIL.MIL
DAVID SHELDON
CIVILIAN APPELLATE DEFENSE COUNSEL
LAW OFFICES OF DAVID P. SHELDON, PLLC
100 M STREET, SE
SUITE 600
WASHINGTON, DC 20003
202-546-9575
DAVIDSHELDON@MILITARYDEFENSE.COM
TAMI L. MITCHELL
CIVILIAN APPELLATE DEFENSE COUNSEL
LAW OFFICES OF DAVID P. SHELDON, PLLC
5390 GOODVIEW DRIVE
COLORADO SPRINGS, CO 80911
719-426-8967
TAMIMITCHELL@MILITARYDEFENSE.COM

